                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM




       On June 23,2003, information was received in the OIG Office indicating that an NSF ~ m ~ l o ~ e e '
       had sent an E-mail from her NSF Outlook Program to numerous other NSF employees
       identifling a family member as a source of           products and advising them ofan ongoing
       contest. The primary concern was that the employee might have been utilizing NSF resources to
       promote a personal business in violation of NSF Bulletin 98-13.

       The subsequent investigation identified that the E-mail did not offer any items for sale or request
       any response from the recipients and was only advising them of a source for the products and a
       chance to register to win some money. There were no indications that the subject was attempting
       to sell or otherwise conduct a personal business through the E-mail and she did not receive any
       type of financial gain from the notification. Further review of the subject's E-mail folders failed
       to identify any similar or otherwise inappropriate &mails sent or maintained by this employee.

       It was noted however that the current policies regarding permitted uses of the E-mail program are
       vague and difficult to locate. These issues have been previously identified and were the subject
       of several other investigations and resulted in a recommendation being forwarded to NSF to
       clarify the agency's current policies addressing the personal use of NSF Technology and
       Communication Resources.




              Accordingly, this case is closed.




NSFOIGFO~
       2 (1 1/02)
